CERTIFICATE OF SERVICE
NO. 19-678
United States, ex rel. Laurence Schneider et al.
Petitioner(s)
v.
JPMorgan Chase Bank, National Association, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
LAURENCE SCHNEIDER REPLY BRIEF OF PETITIONERS, by shipping three (3) true and correct copies of
the same by Fedex 2 day, prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for United States of America

Mark W. Mosier
Covington & Burling, LLP
One City Center 850 Tenth Street, NW
Washington, DC 20001
(202) 662-5435
mmosier@cov.com
Counsel for JPMorgan Chase Bank,
National Association, et al.

Lucas DeDeus

March 12, 2020
SCP Tracking: Luigi Di Marco-350 Main Street, 3rd Floor-Cover Tan

